APPENDIX TABLE OF CONTENTS
Summary Opinion of the Court of
Criminal Appeals, State of Oklahoma
(April 29, 2021) ......................................................... 1a
District Court of Tulsa County, State of
Oklahoma, Findings of Fact and Conclusions
of Law (December 3, 2020) .................................... 11a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 24, 2020) .................................................... 25a

App.1a
SUMMARY OPINION OF THE COURT OF
CRIMINAL APPEALS, STATE OF OKLAHOMA
(APRIL 29, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
SONNY RAYE McCOMBS,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F- 2017-1000
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
SUMMARY OPINION
LEWIS, JUDGE:
Sonny Raye McCombs, Appellant, was tried by
jury and convicted of, count one, second degree robbery
in violation of 21 O.S.2011, § 799; count two, use of a
vehicle in the discharge of a weapon in violation of 21
O.S.2011, § 652(B); count three, possession of a firearm
after former conviction of a felony in violation of 21
O.S. Supp. 2014, § 1283; count five, larceny of merch-

App.2a
andise from a retailer in violation of 21 O.S. Supp. 2016,
§ 1731, and count six, obstructing an officer in violation of 21 O.S.Supp.2015, § 540, in the District Court
of Tulsa County, Case No. CF-2016-6878. In accordance
with the jury’s recommendation the Honorable Doug
Drummond, District Judge, sentenced McCombs to
ten (10) years on count one, twenty-five (25) years on
count two, five (5) years on count three, thirty (30)
days on count five, and one (1) year on count six.
Counts one, two, and three were ordered to be served
consecutively and counts five and six were ordered to
be served concurrently with each other and concurrently with count one. McCombs filed an appeal from
the Judgments and Sentences raising twelve propositions of error. We find that the claim raised in his
eleventh proposition entitles McCombs to relief, thus
the remaining propositions are moot.
In his eleventh proposition, McCombs claims the
District Court abused its discretion by failing to grant
his motion to dismiss for lack of subject matter jurisdiction. McCombs argues that he is a citizen of the
Muscogee (Creek) Nation and the crimes occurred
within the boundaries of the reservations of the
Cherokee Nation and the Muscogee (Creek) Nation.1
McCombs, in his direct appeal, relies on Murphy v.
Royal, 875 F.3d 896 (10th Cir. 2017), which was
affirmed by the United States Supreme Court in Sharp
v. Murphy, 591 U.S. ___, 140 S.Ct. 2412 (2020) for
the reasons stated in McGirt v. Oklahoma, 591 U.S.
___, 140 S.Ct. 2452 (2020).
1 Counts 1 and 5 occurred within the boundaries of the Muscogee
(Creek) Nation Reservation and Counts 2, 3, and 6 occurred
within the boundaries of the Cherokee Nation Reservation.

App.3a
McCombs’ claim raises two separate questions:
(a) his Indian status and (b) whether the crimes
occurred in Indian Country. This Court remanded
the case back to the District Court because we determined that his claim required fact-finding on the two
separate questions.
An evidentiary hearing was timely held before the
Honorable Tracy Priddy, District Judge, and Findings
of Fact and Conclusions of Law were timely filed with
this Court. In its findings of fact, the District Court
found that McCombs has 9/64 degree of Muscogee
(Creek) blood and has been a registered member of
the Muscogee (Creek) Nation since October 11, 2005.
The Muscogee (Creek) Nation is an Indian Tribal
Entity recognized by the federal government.
The District Court also found that counts one and
five occurred within the historical boundaries of the
Muscogee (Creek) Nation Reservation, and counts two,
three, and six occurred within the historical boundaries
of the Cherokee Nation Reservation.
The evidence established that neither the Muscogee (Creek) Nation Reservation nor the Cherokee
Nation Reservation have been expressly disestablished
by Congress. Therefore, the District Court concluded,
and we agree, that the crimes occurred in Indian
Country. See McGirt, 140 S.Ct. at 2468; 18 U.S.C.
§ 1152 and 1153; Spears v. State, 2021 OK CR 7,
¶ 15, ___ P.3d ___; and Hogner v. State, 2021 OK CR 4,
¶ 18, ___ P.3d ___.
We therefore find that the State of Oklahoma
did not have jurisdiction to prosecute McCombs in this
matter.

App.4a
DECISION
The Judgments and Sentences of the District
Court of Tulsa County are REVERSED and the case
is REMANDED with instructions to DISMISS. Pursuant to Rule 3.15, Rules of the Oklahoma Court of
Criminal Appeals, Title 22, Ch.18, App. (2021), the
MANDATE is STAYED for twenty (20) days from
the delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT
OF TULSA COUNTY THE HONORABLE
DOUG DRUMMOND, DISTRICT JUDGE
APPEARANCES AT TRIAL
Dalinda Jeffers
423 South Boulder Ave.
Suite 300
Tulsa, OK 74103
Attorney for Defendant
Regan Reininger
Kevin Deller
Asst. District Attorneys
500 South Denver,
Suite 900
Tulsa, OK 74103
Attorneys for the State
APPEARANCES ON APPEAL
Stuart W. Sountherland
423 South Boulder Ave.
Suite 300
Tulsa, OK 74103
Attorney for Appellant

App.5a
Erik Grayless
Asst. District Attorney
500 South Denver,
Suite 900
Tulsa, OK 74103
Attorney for Appellee
Mike Hunter
Attorney General
Julie Pittman
Tessa L. Henry
Asst. Attorneys General
313 N.E. 21st Street
Oklahoma City, OK 73105
Attorneys for Appellee
Opinion by: Lewis, J.
Kuehn, P.J.: Concur
Rowland, V.P.J.: Concur
Lumpkin, J.: Concur in Results
Hudson, J.: Concur in Results

App.6a
LUMPKIN, JUDGE,
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S.Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded to do what an average citizen who had been
fully informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my service
in the Marine Corps was that I had a duty to follow
lawful orders, and that same duty required me to resist
unlawful orders. Chief Justice Roberts’s scholarly and
judicially penned dissent, actually following the Court’s
precedents and required analysis, vividly reveals the
failure of the majority opinion to follow the rule of law

App.7a
and apply over a century of precedent and history,
and to accept the fact that no Indian reservations
remain in the State of Oklahoma.1 The result seems
to be some form of “social justice” created out of whole
cloth rather than a continuation of the solid precedents the Court has established over the last 100
years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee
on Indian Affairs, stated in response to the Commissioner’s
speech that in Oklahoma, he did not think we could look forward
to building up huge reservations such as we have granted to the
Indians in the past.” Id. at 157. In 1940, in the Foreword to
Felix S. Cohen, Handbook of Federal Indian Law (1942), Secretary
of the Interior Harold Ickes wrote in support of the IRA, “[t]he
continued application of the allotment laws, under which Indian
wards have lost more than two-thirds of their reservation lands,
while the costs of Federal administration of these lands have
steadily mounted, must be terminated.” (emphasis added).

App.8a
with Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with
the Indian reservations. Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907,
all parties accepted the fact that Indian reservations
in the state had been disestablished and no longer
existed. I take this position to adhere to my oath as a
judge and lawyer without any disrespect to our Federal-State structure. I simply believe that when reasonable minds differ they must both be reviewing the
totality of the law and facts.

App.9a
HUDSON, J., CONCUR IN RESULTS:
Today’s decision applies McGirt v. Oklahoma, 140
S.Ct. 2452 (2020) to the facts of this case and dismisses
convictions from the District Court of Tulsa County
for second degree robbery, drive-by shooting, felonious
possession of a firearm, larceny of merchandise from
a retailer and obstructing an officer. I concur in the
results of the majority’s opinion based on the stipulations below concerning the Indian status of Appellant and the location of these crimes within the historic
boundaries of the Creek and Cherokee Reservations.
Under McGirt, the State has no jurisdiction to prosecute Appellant. Instead, Appellant must be prosecuted
in federal court. I therefore as a matter of stare decisis
fully concur in today’s decision.
I disagree, however, with the majority’s definitive
conclusion based on Spears v. State, 2021 OK CR 7,
___ P.3d ___ and Hogner v. State, 2021 OK CR 4, ___
P.3d ___, that Congress never disestablished the
Cherokee Reservation. We should find instead no abuse
of discretion based on the record evidence presented.
I also join Judge Rowland’s observation in his special
writing in Hogner that the Major Crimes Act does not
affect the State of Oklahoma’s subject matter jurisdiction in criminal cases but, rather, involves the
exercise of federal criminal jurisdiction to effectively
preempt the exercise of similar state authority. Id. at
¶ 4 (Rowland, V.P., Concurring in Result).
Finally, I maintain my previously expressed views
on the significance of McGirt, its far-reaching impact
on the criminal justice system in Oklahoma and the
need for a practical solution by Congress. See Bosse
v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J.,

App.10a
Concur in Results); Hogner v. State, 2021 OK CR 4,
___ P.3d ___ (Hudson, J., Specially Concurs); and
Krafft v. State, No. F-2018-340 (Okl. Cr., Feb. 25, 2021)
(Hudson, J., Specially Concurs) (unpublished).

App.11a
DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(DECEMBER 3, 2020)
IN THE DISTRICT COURT IN AND FOR
TULSA COUNTY, STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,
Plaintiff/Appellee,
v.
SONNY RAY McCOMBS,
Defendant/Appellant.
________________________
Tulsa County District Court Case No. CF-2016-6878
Court of Criminal Appeals Case No. F-2017-1000
Before: Tracy PRIDDY, District Court Judge.
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
This matter came on for hearing before the Court
on October 15, 2020, in accordance with the remand
order of the Oklahoma Court of Criminal Appeals
issued on August 24, 2020. The State appeared by
and through Assistant Attorney General Julie Pittman.
Defendant, who is incarcerated, appeared by and
through the Tulsa County Public Defender’s office by
Stuart W. Southerland. Erik Grayless appeared for

App.12a
the Tulsa County District Attorney’s Office. The Court
makes its findings based upon the stipulations and
evidence presented by the parties, review of the
pleadings and attachments in this Court and the
Oklahoma Court of Criminal Appeals, and the briefs
and argument of counsel.
In Proposition Eleven of his appeal, Appellant
claims the District Court lacked jurisdiction to try
him as he is a citizen of the Muscogee (Creek) Nation
and the crimes occurred within the boundaries of the
Muscogee (Creek) Nation, although he later claimed
that count two was committed within the boundaries
of the Cherokee Nation.
In the August 24, 2020, Order Remanding for
Evidentiary Hearing, the Oklahoma Court of Criminal
Appeals directed this Court as follows:
The District Court shall address only the
following issues:
First, the Appellant’s status as an Indian.
The District Court must determine whether
(1) Appellant has some Indian blood, and
(2) is recognized as an Indian by a tribe or
the federal government.
Second, whether crimes occurred within the
boundaries of the Creek Nation. With regard
to crimes occurring in the Cherokee Nation,
the District Court is directed to follow the
analysis set out in McGirt [v. Oklahoma, 140
S.Ct. 2452 (2020)], determining (1) whether
Congress established a reservation for the
Cherokee Nation, and (2) if so, whether

App.13a
Congress specifically erased those boundaries
and disestablished the reservation.1
The parties filed written stipulations.2 The parties
stipulated and agreed as follows:
1.

2.

As to the Defendant/Appellant:
a.

Defendant/Appellant, Sonny Raye McCombs, has 9/64 degree of Muscogee
(Creek) blood.

b.

Defendant/Appellant was a registered
member of the Muscogee (Creek) Nation
at the time of the crimes (on December
15, 2016). Defendant/Appellant has been
a registered member of the Muscogee
(Creek) Nation since October 11, 2005.

c.

The Muscogee (Creek) Nation of Oklahoma is an Indian Tribal Entity recognized
by the federal government.

As to the location of the crimes:
a.

In regard to Count 1, Robbery in the
Second Degree, the parties agree that
the crime occurred on Highway 169 in
Tulsa, Oklahoma, near the 21st and
Garnett exit. This location is within the
boundaries of the Muscogee (Creek)
Reservation.

b.

In regard to Count 2, Use of a Vehicle in
the Discharge of a Firearm, the parties
agree, based on police dash camera foot-

1 Order Remanding for Evidentiary Hearing at 4
2 Exhibit 5, Evidentiary Hearing Stipulations filed October 9, 2020.

App.14a
age, that the crime occurred near the
intersections of East 30th Street North
and Harvard as well as Harvard and
Apache in Tulsa, Oklahoma. This location is within the historical boundaries
of the Cherokee Nation—boundaries set
forth in, and adjusted by, the Treaty of
New Echota between Cherokee Nation
and the United States on December 29,
1835, 7 Stat. 478, the Treaty of 1866
between the Cherokee Nation and the
United States on July 19, 1866, 14 Stat.
799, and the agreement of December 19,
1891, between the Cherokee Nation and
the United States, which was ratified by
an Act of Congress on March 3, 1893,
27 Stat. 612.
c.

In regard to Count 3, Possession of a Firearm After Former Conviction of a Felony, the
Defendant/Appellant presumably continuously possessed the firearm during the
entire string of crimes on December 15,
2016. However, the firearm was visible in
the dash camera footage while the Defendant/Appellant discharged the firearm
at officers during the chase. Thus, the
parties agree that the crime occurred
near the intersections of East 30th Street
North and Harvard as well as Harvard
and Apache in Tulsa, Oklahoma. This
location is within the historical boundaries of the Cherokee Nation—
boundaries set forth in, and adjusted
by, the Treaty of New Echota between

App.15a
Cherokee Nation and the United States
on December 29, 1835, 7 Stat. 478, the
Treaty of 1866 between the Cherokee
Nation and the United States on July 19,
1866, 14 Stat. 799, and the agreement of
December 19, 1891, between the Cherokee Nation and the United States, which
was ratified by an Act of Congress on
March 3, 1893, 27 Stat. 612.
d.

In regard to Count 5, Larceny of Merchandise from a Retailer, the parties
agree that the crime occurred at the
Academy Sports and Outdoors located at
6120 East 41st Street in Tulsa, Oklahoma. This location is within the boundaries of the Muscogee (Creek) Reservation.

e.

In regard to Count 6, Obstructing an
Officer, the parties agree that this crime
occurred near the Elba Terrace trailer
park in Tulsa, Oklahoma. This location
is within the historical boundaries of the
Cherokee Nation–boundaries set forth
in, and adjusted by, the Treaty of New
Echota between Cherokee Nation and
the United States on December 29, 1835,
7 Stat. 478, the Treaty of 1866 between
the Cherokee Nation and the United
States on July 19, 1866, 14 Stat. 799, and
the agreement of December 19, 1891,
between the Cherokee Nation and the
United States, which was ratified by an
Act of Congress on March 3, 1893, 27
Stat. 612.

App.16a
f.

The parties stipulate that if the Court
determines that the treaties referenced
herein established a reservation for the
Cherokee Nation, and if the Court also
concludes that Congress never explicitly
erased those boundaries and disestablished the reservation, then the crimes
occurred within Indian Country as
defined by 18 U.S.C. § 1151(a). The
parties further stipulate, pursuant to
McGirt v. Oklahoma, 140 S.Ct. 2452
(2020), that the crimes that were committed within the boundaries of the
Creek Reservation were committed
within Indian Country as defined by 18
U.S.C. § 1151(a).

Additionally, Defendant/Appellant moved to admit
as evidence, Exhibits 1, 2, 3 & 4. These exhibits were
admitted into evidence without objection. Finally,
Defendant/Appellant filed Defendant’s Remanded
Hearing Brief Applying McGirt analysis to Cherokee
Nation Reservation on September 25, 2020.
I. Defendant/Appellant’s Status as an Indian.
The State of Oklahoma and Defendant/Appellant
have stipulated to Defendant/Appellant’s Indian status
by virtue of his tribal membership with the Muscogee
(Creek) Nation since October 11, 2005 and proof of
his blood quantum of 9/64 Creek. Based upon the
stipulations provided, the Court specifically finds
Defendant/Appellant (1) has some Indian blood, and
(2) is recognized as an Indian by a tribe or the federal
government. Defendant/Appellant is an Indian.

App.17a
II. Whether the Crimes Occurred
in the Creek Nation.
The State of Oklahoma and Defendant/Appellant
stipulated that two of the crimes were committed at
locations identified to be within the boundaries of the
Muscogee (Creek) Nation. Specifically, the crime of
second degree robbery (Count One) and the crime of
larceny of merchandise from a retailer (Count Five)
were committed within the Muscogee (Creek) nation
boundaries. Based upon the stipulations as to Counts
One and Five, the Court finds these crimes occurred
within the historical boundaries of the Muscogee
(Creek) Nation, which is Indian Country as defined
by 18 U.S.C. § 1151(a).
III. Whether the Crimes Occurred
in the Cherokee Nation.
The State of Oklahoma and Defendant/Appellant
stipulated that the remaining crimes for which
Defendant/Appellant was convicted, specifically the
crime of use of a vehicle in the discharge of a weapon
(Count Two), the crime of felon in possession of a
firearm (Count Three) and the crime of obstructing
an officer (Count Six) were committed at locations
that are within the historical boundaries of the
Cherokee Nation as set forth in, and adjusted by, the
Treaty of New Echota between Cherokee Nation and
the United States on December 29, 1835, 7 Stat. 478,
the Treaty of 1866 between the Cherokee Nation and
the United States on July 19, 1866, 14 Stat. 799, and
the agreement of December 19, 1891, between the
Cherokee Nation and the United States, which was
ratified by an Act of Congress on March 3, 1893, 27
Stat. 612.

App.18a
Whether Congress established a reservation for
the Cherokee Nation, the Court finds as follows:
1.

Cherokee Nation is a federally recognized
Indian tribe. 84 C.F.R. § 1200 (2019).

2.

The current boundaries of Cherokee Nation
encompass lands in a fourteen-county area
within the borders of the State of Oklahoma
(Oklahoma), including all of Adair, Cherokee,
Craig, Nowata, Sequoyah, and Washington
Counties, and portions of Delaware, Mayes,
McIntosh, Muskogee, Ottawa, Rogers, Tulsa,
and Wagoner Counties.

3.

The Cherokee Nation’s treaties must be
considered on their own terms, in determining
reservation status. McGirt, 140 S.Ct. at 2479.

4.

In McGirt, the United States Supreme Court
noted that Creek treaties promised a “permanent home” that would be “forever set apart,”
and assured a right to self-government on
lands that would lie outside both the legal
jurisdiction and geographic boundaries of
any state. McGirt, 140 S.Ct. at 2461-62. As
such, the Supreme Court found that, “Under
any definition, this was a [Creek] reservation.”
Id. at 2461.

5.

The Cherokee treaties were negotiated and
finalized during the same period as the Creek
treaties, contained similar provisions that
promised a permanent home that would be
forever set apart, and assured a right to selfgovernment on lands that would lie outside
both the legal jurisdiction and geographic
boundaries of any state.

App.19a
6.

The 1833 Cherokee treaty used precise geographic terms to describe the boundaries of
the new Cherokee lands, and provided that
a patent would issue as soon as reasonably
practical. Art. 1, 7 Stat. 414.

7.

The 1835 Cherokee treaty was ratified two
years later “with a view to re-unite their
people in one body and to secure to them a
permanent home for themselves and their
posterity,” in what became known as Indian
Territory, “without the territorial limits of
the state sovereignties,” and “where they
could establish and enjoy a government of
their choice, and perpetuate such a state of
society as might be consonant with their
views, habits and condition.” Treaty with
the Cherokee, Dec. 29, 1835, 7 Stat. 478 and
Holden v. Joy, 84 U.S. (17 Wall.) 211, 23738 (1872).

8.

Like Creek treaty promises, the United States’
treaty promises to Cherokee Nation “weren’t
made gratuitously.” McGirt, 140 S.Ct. at 2460.
Under the 1835 treaty, Cherokee Nation
“cede[d], relinquish[ed], and convey[ed]” all
its aboriginal lands east of the Mississippi
River to the United States. Arts. 1, 7 Stat.
478. In return, the United States agreed to
convey to Cherokee Nation, by fee patent,
seven million acres in Indian Territory within
the same boundaries as described in the
1833 treaty, plus “a perpetual outlet west.”
Art. 2, 7 Stat. 478.

9.

The 1835 Cherokee treaty described the
United States’ conveyance to the Cherokee

App.20a
Nation of the new lands in Indian Territory
as a cession; required Cherokee removal to
the new lands; covenanted that none of the
new lands would be “included within the
territorial limits or jurisdiction of any State
or Territory” without tribal consent; and
secured “to the Cherokee nation the right
by their national councils to make and carry
into effect all such laws as they may deem
necessary for the government . . . within their
own country,” so long as consistent with the
Constitution and laws enacted by Congress
regulating trade with Indians. Arts. 1, 5, 8,
19, 7 Stat. 478.
10. On December 31, 1838, President Van Buren
executed a fee patent to the Cherokee Nation
for the new lands in Indian Territory.
Cherokee Nation v. Hitchcock, 187 U.S. 294,
297 (1902). The title was held by Cherokee
Nation “for the common use and equal benefit of all the members.” Cherokee Nation v.
Hitchcock, 187 U.S. at 307; See also Cherokee
Nation v. Journeycake, 155 U.S. 196, 207
(1894). Fee title is not inherently incompatible with reservation status, and establishment of a reservation does not require a
“particular form of words.” McGirt, 140 S.Ct.
at 2475 (citing Maxey v. Wright, 54 S.W.
807, 810 (Indian Ten. 1900) and Minnesota
v. Hitchcock, 185 U.S. 373, 390 (1902)).
11. The 1866 treaty resulted in Cherokee cessions
of lands in Kansas and the Cherokee Outlet
and required the United States, at its own
expense, to cause the Cherokee boundaries

App.21a
to be marked “by permanent and conspicuous
monuments, by two commissioners, one of
whom shall be designated by the Cherokee
national council.” Treaty with the Cherokee,
July 19, 1866, art. 21, 14 Stat. 799.
12. The 1866 Cherokee treaty “re-affirmed and
declared to be in full force” all previous
treaty provisions “not inconsistent with the
provisions of the 1866 treaty, and provided
that nothing in the 1866 treaty “shall be
construed as an acknowledgment by the
United States, or as a relinquishment by
Cherokee Nation of any claims or demands
under the guarantees of former treaties,”
except as expressly provided in the 1866
treaty. Art. 31, 14 Stat. 799.
13. Under McGirt, the “most authoritative evidence of [a tribe’s] relationship to the
land . . . lies in the treaties and statutes that
promised the land to the Tribe in the first
place.” McGirt, 140 S.Ct. at 2475-76.
As a result of the treaty provisions referenced
above and admitted into evidence by Defendant/
Appellant, related federal statutes, this Court hereby
finds Congress did establish a Cherokee reservation
as required under the analysis set out in McGirt.
Whether Congress specifically erased the boundaries or disestablished the Cherokee Reservation, the
Court finds as follows:
1.

The current boundaries of Cherokee Nation
are as established in Indian Territory in the
1835 Cherokee treaty, diminished only by
two express cessions.

App.22a
2.

First, the 1866 treaty expressly ceded the
Nation’s patented lands in Kansas, consisting
of a two-and-one-half mile-wide tract known
as the Cherokee Strip and the 800,000-acre
Neutral Lands, to the United States. Art. 17,
14 Stat. 799.

3.

Second, the 1866 treaty authorized settlement
of other tribes in a portion of the Nation’s
land west of its current western boundary
(within the area known as the Cherokee
Outlet); and required payment for those
lands, stating that the Cherokee Nation
would “retain the right of possession of and
jurisdiction over all of said country . . . until
thus sold and occupied, after which their
jurisdiction and right of possession to
terminate forever as to each of said districts
thus sold and occupied.” Art. 16, 14 Stat. 799.

4.

The Cherokee Outlet cession was finalized by
an 1891 agreement ratified by Congress in
1893 (1891 Agreement). Act of Mar. 3, 1893,
ch. 209, § 10, 27 Stat. 612, 640-43.

5.

The 1891 Agreement provided that Cherokee
Nation “shall cede and relinquish all its
title, claim, and interest of every kind and
character in and to that part of the Indian
Territory” encompassing a strip of land
bounded by Kansas on the North and Creek
Nation on the south, and located between
the ninety-sixth degree west longitude and
the one hundredth degree west longitude (i.e.,
the Cherokee Outlet). See United States v.
Cherokee Nation, 202 U.S. 101, 105-06 (1906).

App.23a
6.

The 1893 statute that ratified the 1891
Agreement required payment of a sum
certain to the Nation and provided that, upon
payment, the ceded lands would “become
and be taken to be, and treated as, a part of
the public domain,” except for such lands
allotted under the Agreement to certain
described Cherokees farming the lands. 27
Stat. 612, 640-43; United States v. Cherokee
Nation, 202 U.S. at 112.

7.

Cherokee Nation did not cede or restore any
other portion of the Cherokee Reservation
to the public domain in the 1891 Agreement,
and no other cession has occurred since that
time.

No evidence or argument was presented by the
State specifically regarding disestablishment or boundary erasure of the Cherokee Reservation. The Order
Remanding for Evidentiary Hearing states, “Upon
Appellant’s presentation of prima facie evidence as to
the Appellant’s legal status as an Indian and as to
the location of the crimes in Indian Country, the
burden shifts to the State to prove it has subject
matter jurisdiction.”3
On this point, McGirt provides that once a reservation is established, it retains that status “until
Congress explicitly indicates otherwise.” McGirt, 140
S.Ct. at 2468. Reading the order of remand together
with McGirt, regardless of where the burden of production is placed, no evidence was presented to this
Court to establish Congress explicitly erased or dis3 Order Remanding for Evidentiary Hearing at 4.

App.24a
established the boundaries of the Cherokee Nation or
that the State of Oklahoma has jurisdiction in this
matter. As a result, the Court finds Defendant/Appellant is an Indian and that the crimes were committed
at locations identified to be within the historical
boundaries of the Muscogee (Creek) Nation and also
within the historical boundaries of the Cherokee Nation
as established by the 1835 and 1866 Treaties with
the Cherokee and that those boundaries have not
been erased and disestablished by Congress, thus the
Cherokee Nation is a reservation and falls within the
definition of Indian Country for the purposes of the
General Crimes Act, 18 U.S.C. § 1152 and the Major
Crimes Act, 18 U.S.C. § 1153.
IT IS SO ORDERED this 2nd day of December,
2020.
/s/ Tracy Priddy
District Court Judge

App.25a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 24, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
SONNY RAYE McCOMBS,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
No. F-2017-1000
District Court Case No. CF-16-6878 CFF
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Scott ROWLAND, Judge,
Robert L. HUDSON, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Sonny Raye McCombs, Appellant, was tried by
jury and convicted of count one, second degree robbery
in violation of 21 O.S.2011, § 799; count two, use of a
vehicle in the discharge of a weapon in violation of 21
O.S. 2011, § 652(B); count three, possession of a fire-

App.26a
arm after former conviction of a felony in violation of 21
O.S.Supp.2014, § 1283; count five, larceny of merchandise from a retailer in violation of 21 O.S.Supp,
2016, § 1731, and count six, obstructing an officer in
violation of 21 O.Supp.2015, § 540, in the District
Court of Tulsa County, Case No. CF-2016-6878. In
accordance with the jury’s recommendation the Honorable Doug Drummond, District Judge, sentenced Appellant to ten (10) years on count one, twenty-five (25)
years on count two, five (5) years on count three, thirty
(30) days on count five, and one (1) year on count
six.1 Counts one, two, and three were ordered to be
served consecutively and counts five and six were
ordered to be served concurrently. Counts five and six
were ordered to be served concurrently with count one.
Appellant appeals from these convictions and sentences.
In Proposition Eleven Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that he is a citizen of the Muscogee (Creek) Nation
and the crimes occurred within the boundaries of the
Muscogee (Creek) Nation. Appellant, in his direct
appeal, relies on Murphy v. Royal, 875 F.3d 896 (10th
Cir. 2017), which was affirmed by the United States
Supreme Court in Sharp v. Murphy, 591 U.S. ___,
140 S.Ct. 2412 (2020) for the reasons stated in McGirt
v. Oklahoma, 591 U.S. ___, 140 S.Ct. 2452 (2020).
In later motions, Appellant claims that some
crimes were committed within the boundaries of the
Muscogee (Creek) Nation, while others, particularly,

1 Appellant must serve 85% of his sentence on count two before
becoming eligible for parole consideration.

App.27a
count two, was committed within the boundaries of
the Cherokee nation.
Appellant’s claim raises two separate questions:
(a) his Indian status and (b) whether the crimes
occurred in the Creek Nation. These issues require
fact-finding. We therefore REMAND this case to the
District Court of Tulsa County, for an evidentiary
hearing to be held within sixty (60) days from the
date of this Order.2
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to the Appellant’s legal
status as an Indian and as to the location of the
crimes in Indian Country, the burden shifts to the
State to prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues.

2 In light of this order, Appellee’s request to file a supplemental
response filed July 16, 2020 is rendered moot. Appellant’s
motion for evidentiary hearing filed on July 17, 2020 and amended
on August 3, 2020 is moot.

App.28a
First, the Appellant’s status as an Indian. The
District Court must determine whether (1) Appellant
has some Indian blood, and (2) is recognized as Indian
by a tribe or the federal government.3
Second, whether crimes occurred within the boundaries of the Creek Nation. In making this determination the District Court should consider any evidence the
parties provide, including but not limited to treaties,
statutes, maps, and/or testimony. With regard to crimes
occurring in the Cherokee Nation, the District Court
is directed to follow the analysis set out in McGirt,
determining (1) whether Congress established a reservation for the Cherokee Nation, and (2) if so, whether
Congress specifically erased those boundaries and disestablished the reservation. In making this determination the District Court should consider any evidence
the parties provide, including but not limited to
treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the
record of the evidentiary hearing, the District Court’s
findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
3 See e.g. Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114,
116. See also United States v. Diaz, 679 F.3d 1183, 1187 (10th
Cir. 2012); United States v. Drewry, 365 F.3d 957, 960-61 (10th
Cir. 2004); United States v. Prentiss, 273 F.3d 1277, 1280-81
(10th Cir. 2001).

App.29a
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law, and supplemental briefing shall
occur as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Appellant’s Brief in Chief filed April 19, 2018; and
Appellee’s Response Brief, filed December 3, 2018.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 24th day of August, 2020.

App.30a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge

ATTEST:
/s/ John D. Hadden
Clerk

